Home < Reports < Other   Legal Services Corporation Office of Inspector General
Statement of the Office of Inspector General, Legal Services Corporation,
before the House Judiciary Subcommittee on Commercial and Administrative Law.
Presented September 29, 1999 by Edouard Quatrevaux, Inspector General
Mr. Chairman, Members of the Subcommittee, thank you for the
opportunity to report to you regarding the Office of Inspector General audits
of LSC grantee Case Statistical Reports.
LSC OFFICE OF INSPECTOR GENERAL
The Inspector General Act of 1978 created Offices of Inspector
General, or "OIGs," at 12 cabinet agencies.  These OIGs are different from
other federal organizations in that they are independent of the agencies for
which they provide oversight.  The law grants Inspectors General (IGs)
independent authorities for personnel, procurement, and budget.
Operationally, the law provides that IGs independently conduct audits and
investigations, refer evidence of crimes to prosecutors, coordinate with other
federal, state and local agencies, and report to Congress and to the agency
head.  The law gives IGs access to all agency documents and information,
and the authority to issue subpoenas and to administer oaths.
President Reagan embraced the IG concept, and under his leadership
the number of OIGs increased to 57.  In fiscal year 1998, the OIGs
recommended that $15.8 billion in Federal funds be put to better use,
questioned costs of $3.5 billion, and recovered $1.4 billion through
investigations.  In the same year, OIG actions led to almost 15,000 criminal
prosecutions, 1,900 civil actions, 1,200 personnel actions, and 7,100
suspensions or debarments.
The LSC Office of Inspector General, like all federal OIGs, has the
missions of preventing and detecting fraud and abuse, and promoting
efficiency and effectiveness in the operations of LSC and its grantees.  The
LSC appropriation statute added the mission of overseeing the checking of
grantee compliance with restrictions and prohibitions through a system of
annual audits of grantees conducted by independent public accounting firms.
The OIG has 14 staff, including five auditors, to provide oversight of LSC
and its 257 grantees.
I am especially glad to be here today, so that I can provide the facts
concerning our audits of Case Statistical Reports.  Unfortunately, a well-
known institution published an article suggesting that the OIG failed to report
the results of its audits as required by the IG Act.  It was implied that this
alleged failure was a deliberate attempt to affect the appropriation under
consideration in summer 1998.  The facts prove the suggestion cannot be
accurate.  Because members of the Subcommittee may have read this
article, I will briefly address this point.
INFORMATION NEEDS
Let me say at the outset that I think Congress should receive
accurate, reliable information concerning the performance of LSC and its
grantees  much better and much more comprehensive information than it
now receives.  Congress needs to be able to determine the return on its
investment in the federal legal services program.
That is true for LSC management as well.  They need comprehensive
performance information from grantees, and the information currently
collected is incomplete.  In LSCs 25 years, five GAO audits have found that
LSC did not have sufficient information with which to evaluate the cost-
effectiveness of its grantees.  The finding is still valid today, and that is the
primary reason why I directed that these audits be conducted.
Before reviewing the timing of the audits that were conducted in
1998, I need to make a technical point.
OPEN CASES
Our audits covered both closed cases and open cases, and some
media accounts have mistakenly lumped the two together.  The first chart
makes the point that open cases are not part of workload. Open cases are
defined as those open on December 31st.  Cases open at the end of  Year 1
are usually closed in Year 2 because most cases involve brief services.  If
one counts the open cases in Year 1 as workload, and those cases are
closed in Year 2, then those cases would be double-counted.  Therefore,
open cases are irrelevant to the discussion of caseload levels as a basis for
funding.
We believe that open cases are important but for a different reason.  If
a grantees case management system contains significant errors, then it
raises questions as to how well that organization is managing its cases.
Again, open cases are important, but simply not relevant to workload or
funding.
GOVERNMENT AUDITS
The second chart depicts the process set forth in the Comptroller
Generals Government Auditing Standards. All OIGs are required to comply
with those standards by the Inspector General Act, and every audit is
required to have a statement to that effect.  In the planning phase,
objectives and methodology are set, evaluation criteria specified, information
sources identified, and a plan prepared.  When auditors go on-site, they
conduct testing, gather evidence and begin to prepare the documentation
required by Government Auditing Standards.  Field work is usually the
shortest phase.
The reporting phase is normally the longest phase, because quality
control procedures take place in this phase.  Auditors returning from the field
present an analysis of the evidence they collected to their supervisor.  They
then organize their work papers and create detailed schedules on every
matter expected to appear in the audit report.
Internal draft reports are then submitted to the audit chief until the
draft is approved.  The audit chief reviews those detailed work papers to
ensure that every factual statement in the audit report is supported by
documentary evidence.  Next, a draft audit report is issued to the audited
organization for comment.  This is a very important quality control step in
ensuring that the report is fair, complete, and balanced.  Finally, those
comments are evaluated, the report adjusted as appropriate, and a final
report issued.
This is not a fast process, but it is mandatory for all audits performed
by OIGs.  We have a goal of issuing a draft report within 30 days of
returning from the field.  That goal is extremely ambitious and rarely
achieved.  We normally give auditees 30 days for comments, and aim to
issue a final audit report within 30 days of receiving those comments.  At
best, this process takes three months.  Normally it takes much longer to
complete.
Until these quality control procedures are completed, auditors should
not report results, because the audit is unfinished and any results are
preliminary.  An exception is permitted by Government Auditing Standards
when the audit uncovers evidence of illegal acts.  I would add to that
exceptions for public safety and national security.
However, the LSC Fact Book, which contained the caseload numbers,
hardly rises to this level.  It is not  required by statute, and I am told that it
was not even sent to Congress for the five years between 1992 through
1996.
Here are the facts.  Chart Three shows when OIG auditors were on-site in
1998.  Auditors were on-site at Northern Virginia April 20th-May 28th.  The
original audit  plan covered both case statistics and timekeeping.  After
completion of the Northern Virginia audit, we decided to focus future audits
on case statistics and eliminated the timekeeping component.
OIG auditors found 559 excess closed cases reported, which was
13 percent of the total reported by the grantee.  The audit report was issued
five months later.  Then OIG auditors went to the Gulf Coast and Wisconsin
grantees in June and July, and found reported closed cases to be overstated
by 23 percent and 6 percent, respectively.
The House considered an amendment increasing the LSC appropriation
by $109 million on August 3rd and 4th.  Even if we thought the results of
these first 3 audits demonstrated a significant systemic problem, which we
did not, and we completely skipped mandatory audit procedures, we could
not have reported these before the House debate.  Our auditors traveled
back from Wisconsin on Friday, July 31st.  The House deliberations took
place on the following Monday and Tuesday.
At that time, preliminary results indicated that three of the 260 LSC
grantees may have overstated closed cases by 2,800 cases out of
1.4 million reported, or two tenths of one percent.  We could not have
provided any assurance that the number was accurate because we had not
performed our quality control procedures.  To report to Congress on that
basis would have been irresponsible, and would have risked the OIGs
professional reputation.
The suggestion that the OIG delayed reporting to Congress is refuted
by these facts.
The suggestion offends common sense as well as the facts.  These
audits were 100 percent discretionary.  We could have audited petty cash.
We did not have to do these audits  -- we chose to do them.  If we did not
want to report such results, we could have stopped after the first or second
audit.  If the Office of Inspector General did not want to report the results of
these audits to Congress, why did it begin them?  There are no answers to
these questions because the suggestion is untrue and not credible.
The LSC Office of Inspector General is proud of its work on the Case
Statistical Audits.  The OIG risk assessment identified the problem, and OIG
audits produced the detailed documentation of the problem that prompted
the start of corrective action.  GAOs work was based on the OIG audits and
echoed those findings.  Since then, OIG audits of the 1998 statistical reports
have produced additional valuable information.
While these audits were underway, the OIG audit staff also reviewed
468 grantee audit reports prepared by independent public accountants, and
managed 60 audit service reviews of those independent accountants work
papers to determine if their compliance checking was adequate.  OIG audit
staff also supervised the conduct of the LSC annual financial audit.  I think
the LSC OIG audit staff should be commended for these accomplishments.
AUDITS OF 1997 CASE STATISTICAL AUDITS
Chart Four depicts the results of our audits of the 1997 Case Statistical
Reports.  Two of the grantees audited, San Diego and Miami, were
responsible for 91 percent of the 41,000 overstated closed cases.
The audit of the San Diego grantee disclosed that 14,398 telephone
calls had been reported as closed cases even though legal services had not
been provided.  The Miami audit revealed that 15,160 telephone calls and
visits had been reported as closed cases although no legal services had been
provided.  These cases were reported in a category termed referred after
legal assessment.
These deficiencies should not diminish the value of legal helplines as a
highly efficient way to provide legal services.  The OIGs 1996 report entitled
Increasing Legal Services Delivery Capacity Through Information Technology,
estimated that LSC grantees could quintuple the number of people receiving
legal services through helplines, Internet-based legal services, and the use of
multimedia kiosks.
By next Spring in Orange County California, domestic abuse victims
will be able to file petitions for temporary restraining orders directly from a
legal services kiosk in a shelter.  Just as businesses minimize staff costs
through customer self-service, so can legal services grantees by assisting pro
se representation wherever it is practical.  The telephone helplines, the
Internet, and kiosks are all highly efficient legal services delivery vehicles.
The next largest reporting error concerned 4,700 cases that the San
Diego grantee had reported as closed.   LSC required that reported cases be
funded, at least in part, by LSC funds and we determined that these cases
were funded by other sources.
The San Diego audit also revealed a problem with input to the LSC
reporting system.  The grantee printed a report from its automated case
management system, and then manually entered the data into the automated
LSC system. Although some of the entry errors understated the number of
closed cases, the net result was an overstatement of 2,692 closed cases.
We also saw some counting problems in Northern Virginia that occurred
because the grantees branch offices were not electronically linked to the
main office.
The audits revealed about 2,000 instances where the cases reported
as closed in 1997 should have been closed and reported in previous years,
because legal services had ceased before 1997.
The audits also disclosed 969 duplicate cases, i.e., instances where
there were multiple cases for the same client.  The remaining errors were of
various types.
AUDITS OF 1998 CASE STATISTICAL REPORTS
The final chart depicts the results of this years audits of the 1998
Case Statistical Reports.  Four final reports have been issued, and draft
reports for the audits of North Texas and Boston have been issued to the
grantees for comment.
The results are shown as a range for North Texas, because we are
awaiting its comments on our draft report.  Although the report of the
Boston grantee is still in draft, auditors found no material errors.  Therefore,
the number will not change.
As you can see, the results show continued problems with the Case
Statistical Reports submitted.  Although an improvement over the results of
last years audits of the 1997 data, overstatements averaged 29 percent for
the 1998 data audited by the OIG.
The first two audits found that a single error accounted for most of
the overstatement.  In Monroe County, the grantee partially funded a
centralized  telephone intake and referral service.  The grantee erroneously
reported 1,410 unspecified cases based solely on an allocation of the
funding.  The grantee did not provide direct services to any of the clients.  In
Philadelphia, a new director failed to delete cases coded as rejected before
printing a summary report from the case management system, and 1,072
cases were mistakenly reported.  Absent these two errors, both case
statistical reports would have been much closer to accurate.
The Maryland results are limited to the Baltimore office because the
grantee denied OIG auditors access to the information we needed to
complete the audit.  Auditors found an estimated 2,696 excess cases
reported, almost all relating to untimely case closings.
The audit of the Eastern Missouri grantee disclosed an estimated
5,478 overstatement in closed cases, consisting of duplicate cases, cases
where no legal services were provided, and cases with no identified client.
The largest source of errors found by this years audits was untimely
closing, i.e., the cases should have been reported in prior years because all
activity had ceased prior to 1998.
The audits of two grantees disclosed a new type of error  no client
name.  Various reasons were given why the client name had not been
obtained.  Our view is that if a client name is not documented in the case
management system, the case is unsupported and cannot be reported to
LSC.  LSC management agreed that a client name is necessary to report a
case.
The audits found 2,576 cases for which no legal services had been
provided, most of which resulted from the allocation error at Monroe County.
Duplicate cases, the previously-mentioned inclusion of rejected cases, and a
variety of other error types accounted for the remaining excess cases.
Before moving on to Conclusions and Recommendations, I want to
note that we found no indication of fraud in the course of our work.  Also,
the House Appropriations Committee has requested that the OIG provide an
assessment, by July 2000, of the accuracy of the grantees 1999 case data.
We plan a variety of actions that would develop the information needed for
that assessment.
CONCLUSIONS AND RECOMMENDATIONS
Almost every audit concluded that the grantee needed to establish
better management controls over the case management system, and that
grantee managers needed to oversee the preparation of the report to LSC.
I believe this outcome has a number of causes.  Prior to 1998, LSC
management did not emphasize the importance of these reports.  Prior to
1998, LSC did not adequately analyze the data received, which would have
revealed some anomalies.  Prior to the 1998 revision of the Case Statistical
Report Handbook, some guidance needed clarification.  LSC management
has taken corrective actions in these areas but those actions need to be
maintained.
Some grantee managers did not believe that the current report permits
a full expression of the services they provided, and may have reported other
services despite LSC guidance.  LSC management is attempting to design a
broader, more comprehensive measurement system, which is important for
another reason.
As GAO has reported five times in 25 years, LSC does not have
sufficient information to evaluate grantee cost-effectiveness. To evaluate
grantee cost-effectiveness, LSC must collect information on all services
provided by a grantee and all funding received regardless of source.  These
services vary widely in effort and cost, and should not be aggregated into
one number.  Nor should non-LSC funded activities be combined with LSC-
funded services.  Most important, LSC management must really use this
information for evaluation.  By this I mean that grantees must be held
accountable for the volume of services provided, as well as compliance with
restrictions.  The Results Act would provide an excellent framework to
ensure success.
Last, some grantee responses to OIG audit reports have not been
constructive, and some were clearly hostile and thus inappropriate.  I believe
this attitude is a legacy of the past, and reflects in part the relatively limited
means LSC has to deal with its grantees.  The LSC Act, continued for 19
years through appropriations acts, gives LSC far less leverage with its
grantees than most federal grant agencies.
Congress needs to reauthorize the federal legal services program, not
to reaffirm it, for Congress has done that in its appropriations.  Congress
needs to reauthorize the legal services program in order to conform the
program to Congressional intent, to recognize the lessons learned over the
years, and to provide the leverage that LSC management needs to improve
program performance.  At a minimum, Congress needs to reauthorize to
provide for an inspection unit to conduct on-site inspections on a routine
basis, and to encourage and reward new and highly efficient service delivery
mechanisms such as that I described in Orange County, California.
Last, LSC management is attempting to resolve the access issue
encountered in Baltimore, as it did last summer in San Diego.  If the effort is
not successful, then the OIG and LSC management would need legislation to
ensure access to the records needed to perform our respective duties.
For these and other reasons, Congress needs to replace the 1977 LSC
Act with one that will improve LSC managements ability to do the job
Congress expects.
Thank you for giving me the opportunity to comment in detail.  I look
forward to your questions.
URL: http://oig.lsc.gov/reports/eq990929.htm